                  U.S. ELECTION ASSISTANCE
                         COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                  Administration of Payments Received
                 Under the Help America Vote Act by the
                        Nevada Secretary of State



                   APRIL 30, 2003 THROUGH DECEMBER 31, 2010




Report No.
E-HP-NV-02-11
September 2011
                    U.S. ELECTION ASSISTANCE COMMISSION

                            OFFICE OF INSPECTOR GENERAL

                           1201 New York Ave. NW - Suite 300

                                 Washington, DC 20005



                                                                      September 30, 2011

Memorandum


To:	       Thomas Wilkey
           Executive Director

From:	     Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help
           America Vote Act by the Nevada Secretary of State (Assignment Number E­
           HP-NV-02-11)

        We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received
under the Help America Vote Act (HAVA) by the Nevada Secretary of State (SOS). The
contract required that the audit be done in accordance with U.S. generally accepted
government auditing standards. Clifton Gunderson is responsible for the attached
auditor’s report and the conclusions expressed therein.

        In its audit of the SOS, Clifton Gunderson concluded that, except for the lack of
personnel certifications, the inadequate property records maintenance, the non-transfer of
interest earnings to the election fund, the use of computer equipment for non-HAVA
related purposes and the questionable use of HAVA funds for promotional activities, our
audit concluded that the SOS generally accounted for and expended HAVA funds in
accordance with the HAVA requirements and complied with the financial management
requirements established by the U.S. Election Assistance Commission. The SOS also
complied with section 251 requirements.

        In his August 29, 2011 response to the draft report (Appendix A-1), the SOS
generally agreed with the report’s findings and recommendations, and provided
corrective action; however, the SOS took exception to the questioned costs related to the
promotional activities, but has taken action on or is working to resolve the other
exceptions.

        Also, we have included in the report the EAC response to the draft report
(Appendix A-2), dated September 8, 2011, which stated the action proposed to assist the
SOS in resolving the findings and recommendations. We would appreciate being kept
informed of the actions taken on our recommendations as we will track the status of their
implementation. Please respond in writing to the finding and recommendation included in
this report by November 30, 2011. Your response should include information on actions
taken or planned, targeted completion dates, and titles of officials responsible for
implementation.
        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. §
App.3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report to
Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
     PERFORMANCE AUDIT REPORT


ADMINISTRATION OF PAYMENTS RECEIVED

             UNDER THE

       HELP AMERICA VOTE ACT

               BY THE

          STATE OF NEVADA


 April 30, 2003 Through December 31, 2010



           UNITED STATES

  ELECTION ASSISTANCE COMMISSION





                     

                                                  TABLE OF CONTENTS




                                                                                                                             PAGE


EXECUTIVE SUMMARY ............................................................................................................1


BACKGROUND..........................................................................................................................2


AUDIT OBJECTIVES .................................................................................................................3


SCOPE AND METHODOLOGY .................................................................................................4


AUDIT RESULTS .......................................................................................................................4


APPENDICES


Appendix A-1: Secretary of State Responses to Draft Report .............................................12


Appendix A-2: U. S. Election Assistance Commission Response to Draft Report.............16


Appendix B: Audit Methodology............................................................................................17


Appendix C: Monetary Impact as of December 31, 2010......................................................18

                        U.S. Election Assistance Commission

        Performance Audit of the Administration of Payments Received Under the

                    Help America Vote Act by the State of Nevada



EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Nevada
Secretary of State (SOS) for the period April 30, 2003 through December 31, 2010 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for program income and property purchased with HAVA
payments, and met HAVA requirements for Section 251 funds for an election fund and for a
matching contribution.

Our audit did not include a determination that the SOS and its sub grantees met the
requirements for maintenance of a base level of state outlays, commonly referred to as
Maintenance of Expenditures (MOE). On June 28, 2010, the Commission issued a revised
definitive policy on the requirements for the MOE. The policy included a provision that the states
will have 12 months from the date of the revised policy to voluntarily submit a revised MOE plan
to the EAC. Accordingly, our scope of audit did not include a determination of whether the SOS
and its subgrantees met the requirements for MOE.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the issues discussed below, our audit concluded that the SOS generally accounted
for and expended HAVA funds in accordance with the requirements mentioned above for the
period from April 30, 2003 through December 31, 2010. The exceptions needing SOS’s
management attention are as follows:




                                                1

   1.	 The State of Nevada’s SOS charged $744,894 in payroll expenses to the HAVA election
       account prior to July 1, 2010 which were not supported by documentation to verify that
       the employees worked full-time on HAVA activities

   2.	 The state’s inventory listings of voting equipment located at the counties did not conform
       to the requirements of 41 C.F.R. 105-71.132 (d)(1), (the Common Rule). Various
       required information were missing from the listings, including source of property, who
       holds title, location, acquisition date, condition of property, cost, and percentage of
       federal participation in the cost. At two locations we visited to test equipment for
       existence, there was equipment listed in the wrong location or not located.

   3.	 The state treasurer did not transfer interest earnings totaling $16,777 to the HAVA
       election account for May and June 2003. The HAVA election account is also missing the
       interest that would have accumulated as a result of the compounding effect had the
       interest been deposited timely.

   4.	 One of the five counties we visited was using the HAVA funded computer equipment
       acquired for the Statewide Voter Registration System (SVRS), costing $16,434, primarily
       for daily operations rather than restricting its use to HAVA related activities.

   5.	 Unallowable SOS HAVA expenses of $20,000 used to support the National Women’s
       Suffrage Day activities in 2007.

   6.	 Unallowable SOS HAVA expenses of $25,000 used to produce videos to promote voting
       participation and to conduct other events and programs to encourage registration and
       participation in upcoming elections in 2008.

We have included in this report as Appendix A-1 the SOS management’s formal response on
August 29, 2011 to our draft report. Although we have included management’s written responses
to the draft report, such responses have not been subjected to the audit procedures and,
accordingly, we do not provide any form of assurance on the appropriateness of the responses
or the effectiveness of the corrective actions described therein.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

   •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
      uniform and nondiscriminatory election technology and administration requirements,
      improving the administration of elections for federal office, educating voters, training
      election officials and poll workers, and developing a state plan for requirements
      payments.

   •	 Title I, Section 102 payments are available only for the replacement of punch card and
      lever action voting systems.

   •	 Title II, Section 251 requirements payments are for complying with Title III requirements
      for voting system equipment; and for addressing provisional voting, voting information,
      statewide voter registration lists, and voters who register by mail.


                                                2

Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
       activities [activities for which requirements payments are made].” [Section 253(b)(5)].
    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
       at a level that is not less than the level of such expenditures maintained by the state for
       the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].
    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” [Section 254 )(b)(1)].
AUDIT OBJECTIVES
The objectives of our audit were to determine whether the Nevada SOS:
    1.	 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
        HAVA and applicable requirements;
    2.	 Accurately and properly accounted for property purchased with HAVA payments and for
        program income;
    3.	 Met HAVA requirements for Section 251 funds for an election fund and for a matching
        contribution except for the requirements for maintenance of a base level of state outlays,
        commonly referred to as Maintenance of Expenditures (MOE). On June 28, 2010, the
        Commission issued a revised definitive policy on the requirements for the MOE. The
        policy included a provision that the states will have 12 months from the date of the
        revised policy to voluntarily submit a revised MOE plan to the EAC. Accordingly, our
        scope of audit did not include a determination of whether the SOS and its subgrantees
        met the requirements for MOE.

In addition to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
        Agreements with State and Local Governments (also known as the “Common Rule”) as
        published in the Code of Federal Regulations at 41 CFR 105-71.

    2.	 Expend payments in accordance with cost principles for establishing the allowance or
        disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                           1
    3. Submit detailed annual financial reports on the use of Title I and Title II payments.

1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
20XX for the fiscal year ended that date and will be due by December 31, 20XX.




                                                         3

  SCOPE AND METHODOLOGY

  We audited the HAVA funds received and disbursed by the SOS from April 30, 2003 through
  December 31, 2010 (92-month period) as shown in the following table:

                            FUNDS RECEIVED
TYPE OF         EAC         PROGRAM       STATE       INTEREST       TOTAL         FUNDS         DATA

PAYMENT       PAYMENT        INCOME       MATCH        EARNED      AVAILABLE     DISBURSED       AS OF



Section 101   $ 5,000,000   $        0 $       0      $ 432,449    $ 5,432,449   $ 4,321,407 12/31/2010
Section 102             0            0         0               0             0             0 12/31/2010
Section 251    18,144,727            0   954,986       1,225,063    20,324,776    15,265,280 12/31/2010

Total         $23,144,727   $        0    $954,986    $1,657,512   $25,757,225   $19,586,687 12/31/2010

  Our audit methodology is set forth in Appendix C.

  AUDIT RESULTS

  We conducted this performance audit in accordance with Generally Accepted Government
  Auditing Standards. Those standards require that we plan and perform the audit to obtain
  sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
  based on our audit objectives. We believe that the evidence obtained provides a reasonable
  basis for our findings and conclusions based on the audit objectives. Because of inherent
  limitations, a study and evaluation made for the limited purposes of our review would not
  necessarily disclose all weaknesses in administering HAVA payments.

  Except for the lack of personnel certifications, the inadequate property records maintenance, the
  non-transfer of interest earnings to the election fund, the use of computer equipment for non-
  HAVA related purposes and the questionable use of HAVA funds for promotional activities, our
  audit concluded that the SOS generally accounted for and expended HAVA funds in accordance
  with the requirements mentioned above. The SOS took exception to the questioned costs
  related to the promotional activities, but has taken action on or is working to resolve the other
  exceptions described below as set forth in Appendix A:

  I.    Lack of Personnel Certifications

  The State of Nevada’s Office of the Secretary of State (SOS) charged a total of $894,306 in
  payroll expenses to the Help America Vote Act (HAVA) election fund between May 2003 and
  December 31, 2010. The total was comprised of $794,331 paid to SOS staff working full-time
  on HAVA activities and $99,975 paid to information technology (IT) staff working part-time on
  the statewide voter registration system (SVRS).

  We selected a sample of six (6) full-time staff pay periods for testing with total payroll charges of
  $32,191. We question $28,180 of the total payroll charges tested because of lack of
  documentation to support the salaries as required by OMB Circular A-87, Cost Principles for
  State, Local, and Indian Tribal Governments. The questioned payroll charges were for the SOS
  full-time staff that did not have semi-annual certifications that they worked only on HAVA related
  activities, or their time cards did not indicate that the work was for HAVA related activities. The



                                                     4

SOS began requiring the semi-annual certifications for the six months period ended December
31, 2010, which provided support for the $49,437 full-time payroll charges.

Based on the internal control weaknesses and exceptions explained above, we question all full-
time staff’s payroll charges from inception to June 30, 2010 for lack of appropriate
documentation. These charges amounted to $744,894 ($794,331, less $49,437 total supported
charges).

OMB Circular A-87, in Attachment B Section 8(h)(3) requires that:

          (3)	 Where employees are expected to work solely on a single federal award or cost
               objective, charges for their salaries and wages will be supported by periodic
               certifications that the employees worked solely on that program for the period
               covered by the certification. These certifications will be prepared at least semi­
               annually and will be signed by the employee or supervisory official having firsthand
               knowledge of the work performed by the employee.


Recommendation:

1.	 We recommend that the EAC resolve with the SOS the appropriate corrective action
    regarding the completion of the semi-annual certifications.

SOS Response:

The SOS official stated that the personnel costs were paid from a legislatively approved special
revenue budget account, Election Fund, established for the specific purpose of segregating
funds from other state accounts or general funds. The salaries for the full-time HAVA staff were
paid solely from this account, and only work on HAVA related activities qualified for these
expenditures. The SOS official confirmed that the full-time HAVA employees only performed on
HAVA related activities. They stated that since notification of the missing certifications, the
documentation had been completed for the last six months of 2010 and the first six months of
2011, and a calendaring system had been implemented to ensure semi-annual certifications are
completed. They also indicated the SOS office was open to suggestions from the Inspector
General or EAC regarding providing assurances for salaries for past HAVA-related work.


II.	    Property Management

Our review of the statewide master inventory records disclosed that the records for the different
locations do not contain all information in varying degrees as required in 41 CFR § 105­
71.132(d)(1), referred to as the Common Rule. The following discrepancies were noted:

       •	 One county - Records are missing source, title, acquisition date, unit price, and use and
          condition.
       •	 Ten counties – Records are missing acquisition date and unit price.
       •	 One county – Records are missing source, title, acquisition date, unit price, federal
          percentage, location, and use and condition.
       •	 Two counties – Records are missing acquisition date, unit price, and location.
       •	 One county – Records are missing unit price.



                                                  5

   •	 Las Vegas Secretary of State Storage – Three (3) inventory items listed and selected for
      testing had been transferred to another location, and were improperly reported as being
      held in the Las Vegas storage location.

Also, in our site visits to five counties, we identified the following discrepancies in two location’s
equipment records:

   •	 Las Vegas Secretary of State Storage – One (1) F-5 DNS Controller 520 was not
      located.
   •	 One county – One (1) Sequoia Audio Headset was not located.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132 (the “Common Rule”) states that:


   (d)(1)	   Property records must be maintained that include a description of the property,
             serial number or other identification number, the source of property, who holds the
             title, the acquisition date, and costs of the property, percentage of Federal
             participation in the cost of the property, the locations, use and condition of the
             property, and any ultimate disposition data including the date of disposal and sale
             price of the property.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132 (f) states that:

       (f)    In the event a grantee or subgrantee is provided federally-owned equipment:

              (2)	 Grantees or subgrantees will manage the equipment in accordance with
                   Federal agency rules and procedures, and submit an annual inventory listing.

Recommendations:

We recommend that the SOS:

2.	 Ensure that the counties document at least the minimum information in the property records
    in accordance with 41 CFR § 105-71.132(d)(1).

3.	 Require counties to conduct a physical inventory of all HAVA funded equipment in their
    possession and provide these results to the state for reconciliation with and updating of the
    statewide master inventory list.

SOS Response:

The SOS official stated that county property records have been formatted to capture the
required Common Rule information, and will be distributed to the counties to conduct a physical
inventory of all HAVA funded equipment in their possession. County officials will be required to
sign an acknowledgement annually regarding the accuracy of the list, date it, and provide the
results for the state to use to update the statewide master inventory list.




                                                   6

III.   Interest Earnings

Nevada established an election account to hold Help America Vote Act (HAVA) funds in
accordance with the requirements of HAVA Section 254(b)(1). HAVA also requires the interest
earned from the investment of the monies be deposited into the election account. The timely
deposit of interest earnings produces a compounding effect that adds additional funds to the
program.

Nevada received a Section 101 installment payment of $5,000,000 on April 30, 2003; however,
the state treasurer did not begin transferring interest earned on these funds into the election
account until July 2003. Based on rates provided us by the state treasurer, we determined that
there is a total of $16,777 of interest that should be transferred to the election account for May
and June 2003, plus the compounded interest on these funds until the date of the transfer.

HAVA Section 254 (b) (1) requires that the following monies be deposited into the state’s
election account:

        D.     Interest earned on deposits of the fund.

Recommendation:

4.	 We recommend that the EAC work with Nevada officials to verify and transfer the amount of
    interest owed to the election account for the period from May 1, 2003 through June 30,
    2003, plus the additional compounded interest as of June 30, 2003, and any additional
    compounded interest owed through the date of the transfer.

SOS Response:

The SOS’ office determined that the election fund is eligible for the interest, and sent a letter to
the treasurer’s office asking that correct deposits be made to the HAVA account, including the
compounding interest, and requested that the calculations used to determine the interest
shortfall be provided to ensure the correct amount is transferred.

The Treasurer’s office has transferred $20,838.37 to the HAVA account covering the period
from May 1, 2003 through June 30, 2003 plus the compounded interest through the date of the
transfer.


IV.    Property Usage

During our observation and testing of property and equipment in one of the counties’ municipal
offices, we noted that the state’s inventory listing included HAVA funded computer equipment,
totaling $16,434 that was acquired for the Statewide Voter Registration System (SVRS) access.
However, these computers are used primarily for daily operations, and are not restricted to
HAVA related activities. A determination could not be made as to what portion of these costs is
an appropriate use of HAVA funds.




                                                 7

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41 CFR § 105-71.132 (the “Common Rule”) states that:

     (c)(1)	   Equipment shall be used by the grantee or subgrantee in the program or project for
               which it was acquired as long as needed, whether or not the project or program
               continues to be supported by federal funds. When no longer needed for the
               original program or project, the equipment may be used in other activities currently
               or previously supported by a federal agency.

EAC Guidelines on DeMinimis Uses of Equipment

     May HAVA funds be used to support deminimus uses of equipment by the state for non-
     HAVA related purposes?

     No. The state can allocate only that portion of the equipment purchase cost that will go to
     benefit the state’s HAVA program. Alternatively, the expenses may qualify as an indirect
     cost in which case the state may submit an indirect cost rate proposal in which it identifies
     and supplies information regarding direct and indirect costs of operation.

Recommendation:

5.	 We recommend that the EAC work with the state to determine the allowability of the
    equipment costs noted above.

SOS Response:

The SOS’ office responded that they understood the requirement that the HAVA funded
equipment could only be used to benefit state’s HAVA program, and noted that they sent
correspondence to the counties on December 19, 2006 and May 12, 2009 stating that the
federally funded equipment was restricted in its use, and “…its non-HAVA use, even de minimis
use, will not be allowed.” They further stated that, since the state had consistently advised
counties as to the limitations of HAVA purchased equipment, they requested the state not be
held accountable for the de minimus use contrary to direct instructions from their office.


V.     Unallowable Expenses

On August 25, 2006, the Nevada SOS awarded a grant for $20,000 of HAVA Section 101 funds
to be used to support National Women’s Suffrage Day (NWSD) activities in 2007. The funds
were used for promoting the NWSD activities through paid advertising, and providing funds to
youth theater groups for planned rehearsals and necessary stage props for performances of a
play to tell the history of women’s struggles to get the right to vote. The grant application stated
that the “target audiences are elementary school-age children and their parents residing in Clark
County in July 2007.” Our review of the grant related activities concluded that, although there
were some aspects of the NWSD program that encouraged parents to register to vote, many of
the events and activities were directed at non-voting age children and did not meet the HAVA
definition of educating voters on voting procedures, voting rights, and voting technology.




                                                 8

The proposed uses of the funds were for:

   •	   Advertising (Radio)           $ 6,000
   •	   Travel                            500
   •	   Administrative costs            1,000
   •	   Print materials                 4,000
   •	   Other related costs (Note)      8,500

        Total                         $20,000


Note: Contract with a teen theater group included a stipend for the adult coordinator.

HAVA Section 101 funds can be used to improve the administration of elections. HAVA Section
101(b)(1)(C) requires that:

        (b) USE OF PAYMENT.—

               (1) IN GENERAL.—A state shall use the funds provided under a payment made
               under this section to carry out one or more of the following activities:

                       (C) Educating voters concerning voting procedures, voting rights, and
                       voting technology.

The EAC Funding Advisory Opinion (FAO) 08-005 states:

        The EAC has concluded that HAVA authorizes the use of HAVA funds for voter
        registration activities as follows:

           •	 Section 101(b)(1)(C) allows Section 101 funds to be used for educating voters
              concerning voting procedures.

        In the opinion of EAC, the phrases “educating voters on voting procedures” and “how to
        cast a vote” would include providing instruction on how to register to vote as one could
        not vote if not registered. However, voter registration activities do not qualify for funding
        under the umbrella of improvements to the administration of elections for Federal office
        because the activities do not directly contribute to the administration of a Federal
        election.

Recommendation:

6.	 We recommend that the EAC resolve the issue with the SOS whether the costs associated
    with NWSD, as set forth above, qualify for HAVA funding.

SOS Response:

The SOS’ office considers the costs an allowable expenditure of HAVA funds and provides their
rationale in the response in Appendix A, citing various aspects of the program as justification,
including the diverse audience to which it was directed.




                                                 9

Auditor’s Response:

EAC has determined in FAQ-08-005 that the use of HAVA funds to educate non-voters and to
increase voter turnout is not allowed under HAVA.


VI.   Unallowable Expenses

The SOS used Section 101 HAVA funds totaling $25,000 for video segments that may not be
allowable, since not all of the content of the programs was directed at voter education. Some of
the videos were designed to encourage voter registration, which is allowable as determined by
the EAC; however, the videos also included get out the vote messages. The programs ended
with references to two websites labeled Silverstate08.com and RaiseYourVoice.org.


HAVA Section 101 funds can be used to improve the administration of elections. HAVA Section
101(b)(1)(C) requires that:

       (b) USE OF PAYMENT.—

              (1) IN GENERAL.—A state shall use the funds provided under a payment made
              under this section to carry out one or more of the following activities:

                      (C) Educating voters concerning voting procedures, voting rights, and
                      voting technology.

The EAC Funding Advisory Opinion (FAO) 08-005 states:

       The EAC has concluded that HAVA authorizes the use of HAVA funds for voter
       registration activities as follows:

           •	 Section 101(b)(1)(C) allows Section 101 funds to be used for educating voters
              concerning voting procedures.

       In the opinion of EAC, the phrases “educating voters on voting procedures” and “how to
       cast a vote” would include providing instruction on how to register to vote as one could
       not vote if not registered. However, voter registration activities do not qualify for funding
       under the umbrella of improvements to the administration of elections for Federal office
       because the activities do not directly contribute to the administration of a Federal
       election.

Recommendation:

7.	 We recommend that the EAC resolve the issue with the SOS whether the costs associated
    with this grant, as set forth above, qualify for HAVA funding.

SOS Response:

The SOS’ office considers the costs an allowable expenditure of HAVA funds and provides their
rationale in the response in Appendix A, citing the educational aspects of the websites to which
the videos direct the viewer.


                                                10

Auditor’s Response:

We agree that the archived website we viewed offers educational material regarding voting that
might be allowed by HAVA. However, the EAC has determined in FAQ-08-005 that the use of
HAVA funds to increase voter turnout, which was the focus of the videos, is not allowed under
HAVA, and we stand by our recommendation.


                             ****************************************

We provided a draft of our report to the appropriate individuals of the Nevada SOS and the
Commission. We considered any comments received prior to finalizing this report.

The EAC responded on September 8, 2011 and generally agreed with the report’s findings and
recommendations. The EAC stated that they would work with the SOS to resolve the issues
associated with voter education and ensure appropriate corrective action. The EAC’s complete
response is included as Appendix A-2


CG performed its work between January 10, 2011 and January 28, 2011.


Calverton, Maryland
May 3, 2011




                                               11

                                                                                                                             Appendix A-1

  ROSS MILLER                                              STATE OF NEVADA                                             SCOTT W. ANDERSON
      Secretary of State                                                                                                       Deputy Secretary

                                                                                                                          for Commercial Recordings


NICOLE J. LAMBOLEY                                                                                                        SCOTT F. GILLES
Chief Deputy Secretary of State                                                                                         Deputy Secretary for Elections


 ROBERT E. WALSH                                                                                                          KATE L. THOMAS
       Deputy Secretary
                                                                                                       Deputy Secretary
     for Southern Nevada
                                    OFFICE OF THE
                                                     for Operations
                                                     SECRETARY OF STATE



           The Attachments referred to in the response are not included in the report, but are
                                 available to the EAC upon request.

                                                                   August 29, 2011

     Curtis Crider
     Inspector General
     U.S. Election Assistance Commission
     1201 New York Ave, NW – Suite 300
     Washington, DC 20005

     Re: State of Nevada’s Response to NFRs

     Dear Mr. Crider:

            Thank you for your email dated July 22, 2011 regarding the Notification of Findings and
     Recommendations that were prepared by Clifton Gunderson for its audit of the State of Nevada’s
     use of HAVA funds. Please consider this letter the State’s response as prepared by the Nevada
     Secretary of State. For your convenience, a listing of Findings and justifications are noted
     below.

     NFR 1 - Personnel Certifications

     Upon the initial disbursement of the HAVA funding in 2003, the Nevada Secretary of State’s
     Office established a legislatively approved special revenue budget account known as the Election
     Fund under Nevada Revised Statute (“NRS”) 293.442. Federal election funds are deliberately
     held separately here are not commingled with general funds. Salaries for full-time HAVA staff,
     including the HAVA Administrator, and HAVA Program Officer, are paid solely out of this
     budget account. For a salary to be paid out of this account, only work performed for HAVA
     related activities can be performed. While Secretary of State HAVA staff was not aware of the
     technical OMB A-97 rule regarding the need for biannual personnel certifications, please be
     assured that full-time HAVA employees only performed HAVA related activities.




       NEVADA STATE CAPITOL            COMMERCIAL RECORDINGS                   LAS VEGAS OFFICE                         RENO OFFICE
       101 N. Carson Street, SUITE 3    MEYER’S ANNEX OFFICE             555 E. Washington Avenue Ste. 5200   500 Damonte Ranch Pkwy, Suite 657-A
      Carson City, Nevada 89701-4786         202 N. Carson Street          Las Vegas, Nevada 89101-1090               Reno, Nevada 89521
        Telephone: (775) 684-5708      Carson City, Nevada 89701-4201              SECURITIES                      Telephone: (775) 687-9950
            Fax: (775) 684-5725          Telephone: (775) 684-5708           Telephone: (702) 486-2440                Fax: (775) 853-7961
                                             Fax: (775) 684-5725                Fax: (702) 486-2452
                                                                                 CORPORATIONS
                                                                             Telephone: (702) 486-2880
                                                                                Fax: (702) 486-2888

                                                                    12
Since notification of the missing certifications, the HAVA Administrator coordinated with the
Secretary of State’s personnel technician to complete a certification for the last six months of
2010, as well as the for the first six months of 2011. Future and reoccurring semi-annual
certifications have been scheduled through the office’s internal Outlook calendar system. If the
Inspector General, or the EAC, has further corrective action to ensure the completion of semi­
annual certifications, the Secretary of State’s Office is open to suggestions.
NFR 2 – Property Records
County property records that were not formatted to capture the required Common Rule
information have since been amended. Following the Recommendation in NFR 2, these records
will be distributed to county staff who will conduct a physical inventory of all HAVA funded
equipment in their possession, sign a Secretary of State acknowledgement regarding the accuracy
of the list, date it, and provide these results for the State to use to update the statewide master
inventory list.
NFR 3 – Interest Earnings
After a review of the timing of deposits by the previous administration of initial HAVA 101
funds and notification to the Treasurer’s Office of the eligibility of these funds to earn interest, a
letter had been sent to the Treasurer’s Office asking that correct deposits be made to the HAVA
account, including the compounding interest, for two months worth of interest in May and June
of 2003.
UPDATE - The Treasurer’s Office has deposited the amount owed to the HAVA account,
depositing $20,838.37 into the account. This amount includes interest owed to the election
account for the period from May 1, 2003 through June 30, 2003, plus the additional compounded
interest as of June 30, 2003, and any additional compounded interest owed through the date of
the transfer. Please see Attachment “A” as verification of the transfer.
NFR 4 – Property/Usage
The Secretary of State’s Office understands that the State can allocate only that portion of the
equipment purchase costs that will go to benefit the State's HAVA program. Both the prior
administration, and this administration, has consistently advised the counties that were recipients
of HAVA purchased equipment that those purchases were for federal election purposes only. In
an email dated December 19, 2006, concerning this very SVRS equipment noted in the Finding,
HAVA Administrator Raji Rai-Nielsen wrote to clerks, including Carson City, "For the time
being, as long as you are using the left over inventory ONLY for election related purposes, you
can continue to use it" (emphasis in original). Then again, in a faxed letter dated May 12, 2009,
Deputy for Elections Matt Griffin provided counties three options for replacement of equipment,
highlighting that "the Secretary of State's office will still purchase equipment for federal election
use with the State paying 100% of the cost for equipment that is used 100% of the time for
federal elections. The equipment purchased under this arrangement will require a signed
acknowledgement from your office as to the limitations of use for this type of equipment. Under
this type of purchasing, non-HAVA use, even de minimis use, will not be allowed." Both
correspondences are included as Attachment “B” to this letter. Since the State has consistently




                                              13
advised the counties as to the limitations of HAVA purchased equipment, it should not be held
responsible for de minimis use contrary to direct instructions from this office. The Secretary of
State’s Office welcomes the opportunity to work with the EAC to determine the allowability of
the equipment costs noted above.
NFR 5 – Sub-grant – Woman’s Suffrage Day
The Secretary of State’s Office, upon recommendation from the Advisory Committee on
Participatory Democracy, which was authorized to recommend grant awards pursuant to HAVA
eligible activities, provided a $20,000 grant in 2006 to the League of Women Voters (“LWV”)
Women’s Suffrage Program, which focused its activities on a broad and diverse audience. This
broad and diverse audience has resulted in a finding during this audit based on ages of some of
the audience. Because Women’s Suffrage has a wide demographic reach, this program is
distinguishable to other HAVA activities found to be unrelated to voter education based on their
direct and singular focus on non-voting age recipients. For instance, HAVA funds targeting non­
voting age audiences through coloring books can be distinguished from our program in that a
coloring book audience is obviously a child audience; whereas the Women’s Suffrage program
was targeted to audiences of all ages, including P-17 (pre-18 year olds) and voting age
individuals. Please note the message on the poster as Attachment “C,” “Show your kids the
Importance of Voting. They Will be More Likely to Vote as Adults” as an example that this
program targeted voting age audiences. Also, unlike the singular audience of a coloring book
program, highlighting Women’s Suffrage to educate voters on constitutional voting rights cannot
be limited to an age group because Women’s Suffrage impacts all voter demographics.
Educating voters concerning voting procedures, voting rights and voting technology are
expressly stated allowable Section 101 expenses. This program provided fundamental education
to a specific voting right, the Nineteenth Amendment to the U.S. Constitution. As such, the
Secretary of State’s Office believes this program was an allowable expense. The expenses of this
program should not be questioned if elementary school age children – who were not the sole
target - benefited as being part of a larger mixed and indiscriminate audience. The Secretary of
State’s Office will provide any further material upon request to defend its position and help
resolve with the EAC that these costs were allowable.
NFR 6 – Sub-grant – College of Southern Nevada Foundation
The College of Southern Nevada used Section 101 funds to produce 6 videos (1. Voting is Your
Right, 2. Voting Isn’t Hard, 3. Vote Early, 4. ESL (in English), 5. Absentee Ballots, 6. ESL (in
Spanish)) concentrating on, and educating voters about, voting procedures, voting rights, and
voting technology. While each video concludes with the phrase “This November Raise Your
Voice, Get Out and Vote,” these videos are more than your typical prohibited Get Out the Vote
(“GOTV”) messages.
               Video 1, Voting is Your Right, emphasizes qualifications for registering to vote,
including citizenship and age requirements, and the need to register before voting. Pursuant to
EAC FAO 08-005, Section 101 funds may be used at any time to instruct individuals on how to
register to vote. This would include print, radio, and television advertisements informing
individuals about the need to register to cast a vote, where to register to vote, how to obtain




                                            14
registration forms, and how to complete the forms (emphasis added). Since this video instructs
individuals about the requirement to register to vote before being able to cast a ballot and vote as
noted in FAO 08-005, it cannot be characterized as just a GOTV message, and should be an
allowable expense.
                Video 2, Voting Isn’t Hard, educates voters about Nevada’s DRE voting
technology and how you operate a touchscreen voting machine. Instructing viewers as to voting
technology educates beyond a simple GOTV message. As such, this video should also be
considered an allowable Section 101 expense.
                Videos 3 and 5 educate viewers on Early Voting and Absentee Voting, two voting
procedures in Nevada. The Early Voting video provides specific dates for early voting, as well
as the requirement to be registered before voting. The Absentee Video also emphasizes early
voting, as well as educates viewers that to request an absent ballot, they just need to contact their
local election official. References to two websites are provided at the end of the video for more
information. One of the websites, silverstate08.com, not only has a link to a listing of local
election official contact information for which a viewer could use to request an absent ballot, but
a link to the actual absent ballot request form. The wealth of early and absentee voting
procedure information provided in these two videos should justify an allowable Section 101
expense and not be considered just a GOTV message.
                Videos 4 and 6 educate voters with limited English language proficiency as to
understanding the voting process in Nevada by requesting a sample ballot in either English or
Spanish print. Providing assistance to Native Americans, Alaska Native citizens, and to
individuals with limited proficiency in the English language is an expressly allowable use of
Section 101 funds. Furthermore, Section 302 voting information requirements define a sample
version of the ballot that will be used for that election as component of voting information. As
such, educating voters to request a sample ballot in either English or Spanish so that they may
learn about voting procedures, voting rights, and voting technology goes beyond just a GOTV
message. Therefore, this video, too, should be an allowable expense.
         Each of these videos concludes with references to visit raiseyourvoice.org and
silverstate08.com for more information.           While not currently active as a URL, a
silverstate08.com link has been archived on the Secretary of State’s website, and may be found
at http://www.nvsos.gov/silverstate008gen/.         It should be noted that in addition to
raiseyourvoice.org, silverstate08.com was an active link at the time of this grant during the 2008
election cycle. Silverstate08.com not only provides election results (which is an acceptable
component and expenditure of a HAVA voting system pursuant to 301(b)(1)(c)), but the site also
provides links to voting procedures (early voting times and locations, absent ballot procedures
and forms, and Election Day voting), voting rights (Voter’s Bill of Rights), and voting
technology (Voting Machine Demo video). By concluding each voting procedure video with
references to more information at silverstate08.com, these videos educate voters in-depth as to
voting procedures, voting rights, and voting technology.
         For all the aforementioned reasons, the Secretary of State’s Office believes that this
subgrant, and the videos produced therein, are allowable expenses as illustrated in FAO 08-005.




                                            15
                                                                          Appendix A-2




                   EAC RESPONSE TO THE DRAFT AUDIT:
                   OIG Performance Audit Report on the Administration of
                   Payments Received Under the Help America Vote Act by the
                   State of Nevada, for the Period April 30, 2003 Through
                   December 31, 2010.

September 8, 2011

MEMORANDUM

To:          Curtis W. Crider
             Inspector General



From:        Thomas R. Wilkey
             Executive Director

Subject:     Draft Performance Audit Report – “Administration of Payments
             Received Under the Help America Vote Act by the State of
             Nevada”.

Thank you for this opportunity to review and respond to the draft audit report for
Nevada.

The Election Assistance Commission (EAC) generally concurs with the results of
the review and recommendations. The EAC will work with the Nevada Secretary
of State (SOS) to resolve the issues associated with voter education and ensure
appropriate corrective action.




                                     16
                                                                                       Appendix B
                                    AUDIT METHODOLOGY

Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds and of relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate SOS employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last 2 years.

•	 Reviewed policies, procedures and regulations for the SOS’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Examined appropriations and expenditure reports for state funds used to meet the five
   percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the financial status reports, Form SF-269 and 425, accounting for
   property, purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.

•	 Conducted site visits of selected counties to observe physical security/safeguard of
   equipment purchased with HAVA funds and to test for proper accounting and
   documentation.



                                                17

                                                                     Appendix C


                 MONETARY IMPACT AS OF DECEMBER 31, 2010




                                            Questioned        Additional Funds for
             Description                      Costs                 Program
Semi-annual certifications of full-time
employment on HAVA activities not filed            $744,824                       $0

Interest earnings not transferred to
HAVA election account                                                      $20,838

Non-HAVA related use of SVRS
computer equipment                                  $16,434

National Women’s Suffrage Day                       $20,000

Video promotional program                           $25,000                       $0

Totals                                             $806,258                $20,838




                                          18

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
